 

U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

March 25, 2020

Honorable Scott S. Harris

Clerk

Supreme Court of the United States
Washington, D.C. 20543

Re: — Celgene Corporation v. Laura A. Peter, Deputy Under Secretary of
Commerce for Intellectual Property and Deputy Director, Patent
and Trademark Office, S.Ct. No. 19-1074

Dear Mr. Harris:

The petition for a writ of certiorari in the above-captioned case was filed on February 26,
2020, and placed on the docket on March 2, 2020. The government’s response is due on April 1,
2020.

We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 1, 2020, within which to file the government’s response.

This extension is requested to complete preparation of the government’s response, which

was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Ss Wadd

a JFrancisco
Solicitor General

ce: See Attached Service List
19-1074
CELGENE CORPORATION
LAURA A. PETER, DEPUTY

GREGORY A. CASTANIAS
JONES DAY

51 LOUISIANA AVENUE, NW
WASHINGTON, DC 20001-2113
202-879-3639
GCASTANIAS@JONESDAY.COM
